0-7R7n

No.

IN THE
/

SUPREME COURT OF THE UNITED STATES

FAIZAH DEAN - PETITIONER
vs
WORKERS COMPENSATION APPEALS BOARD,
SOUTHERN CALIFORNIA EDISON - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
ADJ 838627, ADJ838621, ADJ8009847
THE SUPREME COURT OF THE STATE OF CALIFORNIA

PETITION FOR WRIT OF CERITIORARI

FAIZAH DEAN

8208 Magnolia Ave #11
Riverside, CA 92504
(951)231-3075
l

p«-£q

MA* 15 2021

QUESTION(S) PRESENTED
Question One: In Franco v. MV Transportation, Inc., 2019 Cal. Wrk. Comp. P.D. LEXIS
120 the panel held that injured workers may make a prima facie showing of unlawful
discrimination even where they cannot demonstrate a singling out for disadvantageous
treatment, so long as they show some adverse result as a consequence of some action
or inaction by the employer that was triggered by the industrial injury, and that they a legal
right to receive or retain the deprived benefit or status and the employer had a
corresponding legal duty to provide or refrain from taking away that benefit or status. Does
Franco extend to any cases decided after under Cal. Lab. §132a?

Question Two: In the case Alnimri v. Southwest Airlines and the Appeals Board panel’s
Opinion and decision after reconsideration issued on July 31,2019 the defendant’s failure
to follow its own voluntary process to resolve conflicting medical reports prior to
dismissing Alnimri from work was conduct that subjected Alnimri to disadvantages not
visited upon other employees. It was an act of unlawful discrimination under section 132a.
Does Alnimri extends to any case decided after under Cal. Lab. §132a?

Question Three: In Villegas v. Six Flags Entm’t Corp., 2018 Cal. Super. Lexis 7680 The
court granted the ex parte application and determined that the statutory 5-year period to
bring this case to trial under Code of Civil Procedure section 583.310 expired on August
23, 2018. The trial did not take place before that date, nor did plaintiff request that a trail
be set before that date. Therefore, pursuant to California Code of Civil Procedure section
2

583.310, 583.340 and 583.360, this case is dismissed. The Court found that it was not
impracticable, impossible, or futile to bring this case to trial within the 5-year period at any
time. The Court also found that Plaintiffs Andrew Villegas, Jennifer Gilmore, Dustin
Liggett, and Hans Gundelfinger did not satisfy their burden of establishing a causal
connection between any alleged circumstances of impossibility, impracticability, or futility
and Plaintiffs’ failure to bring the case to trial within 5 years. Accordingly, dismissal of the
complaint is mandatory. Does Villegas extend to the company, an employer, and
defendant under Cal. Lab. Code § 132a?
Question Four: Whether a pro se petitioner should be allowed to produce the date of the
filing of the EEOC or District Court original filing?

3

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

RELATED CASES
[X] All cases appear in the caption of the case on the cover page.

4

INDEX TO APPENDICES

APPENDIX A

California Workers Compensation Appeals Board July 22, 2020
[pg. 5 - (1-47)]

APPENDIX B

Decision of California State Trial Court January 14, 2020
[pg. 5-(48-71)]

APPENDIX C

Decision of State Supreme Court Denying Review 12/16/20
[pg. 5 - (72-73)]

APPENDIX D

132a Application February 1, 2013 [pg. 5 - (74-90)]

APPENDIX E

Decision of Court of Appeals Denying Review October 27, 2020
[pg. 5-(91-93)

5

TABLE OF AUTHORITIES CITED
PAGE NUMBERS

CASES
Villegas v. Six Flags Entm’t Corp., 2018 Cal. Super. Lexis 7680

3

Franco v. MV Transportation, Inc., 2019 Cal. Wrk. Comp. P.D. LEXIS 120

3

Alnimri v. Southwest Airlines

3

STATUTES AND RULES
California Labor Code §132a, CCP §§583.310 and 583.360

OTHER

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
A

to the petition and is

[ ] Reported at_________________________________________

I or,

[ ] Has been designated for publication but is not yet reported; or,
[ ] Is unpublished.

The opinion of the Workers Compensation Appeals Board court
appears at Appendix___A

to the petition and is

[ ] Reported at_________________________________________
[ ] Has been designated for publication but is not yet reported; or,
[ ] Is unpublished.

1.

7

I or,

\

JURISDICTION

[ X ] For cases from state courts:
The date on which the highest state court decided my case was July 22, 2020. A copy of
' that decision appears at Appendix

A

A timely petition for rehearing was thereafter denied on the following date: December 16
2021, and a copy of the order denying rehearing appears at Appendix

C

An extension of time to file the petition for a writ of certiorari was granted to and including
(date)

(date)

on

in

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

8

Application

No.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Constitution, Amendment XIV, § 2.
California Labor Code § 132a
Occupational Safety and Health Administration
Carve-Out Agreement
International Brotherhood of Electrical Workers Local 47

9

STATEMENT OF THE CASE
The court (Appendix B pg. 5-45, 5-69) determined that in the event the statute of
limitations is not considered a bar, it shall be found that the applicant has not sustained
her burden of proof to establish discriminatory conduct under Labor Code § 132a.

FACTS
Statute of limitation and Burden of proof was not found based on Lauher, supra, 200 Cal.
4th at pp. 1298-1299 a conflict of law and date of original filing of EEOC and U.S. District
Court.
The Workers Compensation Appeals Board did not respond to the question of New
Discovery. (Appendix A, pg. 5-2)

ISSUE
The threshold to consider is whether the employee established a prima facie case and if
the applicant filed an earlier complaint to the U.S. District Court or an earlier EEOC
complaint was filed earlier.

RULE
California Labor Code § 132a

APPLICATION/ANALYSIS/ REASONING
The WCAB (Appendix (5- (42-43)) opinion and decision on the statue of limitation were
based on a reading of the date on a First Amended complaint (Dean vs. Southern
California Edison) EDCV12-01435 or submitted a claim with the EEOC before the
February 21,2012.
The WCAB opinion and decision were based on Lauher, supra, 200 Cal. 4th at pp. 12981299, the Court noted with approval the Court of Appeal’s finding that the formulation
enunciated in Smith v. Workers’ Compensation Appeal Board (1984) 152 Cal. App. 3rd
1104, and adopted by Barns to establish a prima facie case was analytically incomplete.

CONCLUSION
The court ruled in favor of the defendant.

10

REASONS FOR GRANTING THE PETITION

The petition should be granted and return to the lower court for further development of
the record based on Lauher, Franco, and Villegas case and the EEOC or United States
District Court as it applies to discrimination, and the statue of limitation based on.

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: March 13, 2021

11

